DEPARTMENT OF HOMELAND SECURITY

     Office of Inspector General




       DHS’ Progress In Addressing 

     Coordination Challenges Between 

    Customs and Border Protection and 

  Immigration and Customs Enforcement 





OIG-07-38                       April 2007
                                                                       Office of Inspector General

                                                                       U.S. Department of Homeland Security
                                                                       Washington, DC 20528




                                         April 13, 2007

                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

This report evaluates DHS’ progress in addressing coordination challenges between Customs and
Border Protection (CBP) and Immigration and Customs Enforcement (ICE) identified in our initial
report—An Assessment of the Proposal to Merge Customs and Border Protection with Immigration
and Customs Enforcement, OIG-06-04, November 2005. It also analyzes DHS’ April 2006 response
and action plan for each of the 14 recommendations made in the November 2005 report. It is based
on interviews with employees and officials of relevant agencies and a review of applicable
department records and documents.

The analysis herein has been developed to the best knowledge available to our office, and has been
discussed in draft with those responsible for implementation. It is our hope that this report will
result in more effective, efficient, and economical operations. We express our appreciation to all of
those who contributed to the preparation of this report.




                                             Richard L. Skinner 

                                             Inspector General 

Table of Contents 



  Executive Summary .........................................................................................................................1 


  Background ......................................................................................................................................2 


  Results of Review ............................................................................................................................3 


          Actions Taken to Improve CBP and ICE Coordination..........................................................3 

          Roles, Responsibilities, and Communication ........................................................................8 

          Strategic Planning ................................................................................................................11 

          CBP and ICE Resource Planning .........................................................................................13 

          Operational Coordination and Conflict Resolution .............................................................13 

          Intelligence and Information Sharing ..................................................................................14 

          Establishing Performance Metrics and Standards ................................................................16 

          Efforts to Effect Change ......................................................................................................18 


  Management Comments and OIG Analysis ..................................................................................19 


Appendices
  Appendix A:            OIG Analysis of DHS Response to An Assessment of the Proposal to Merge 

                         CBP with ICE, OIG-06-04 ..................................................................................29 

  Appendix B:            Continuing Recommendations .............................................................................39             

  Appendix C:            Purpose, Scope, and Methodology .......................................................................40 

  Appendix D:            Management Response to Draft Report ...............................................................41

  Appendix E:            Major Contributors to This Report.......................................................................51 

  Appendix F:            Report Distribution...............................................................................................52 





                       DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE
Table of Contents 


Abbreviations
  CBP                     Customs and Border Protection
  DEA                     Drug Enforcement Administration
  DHS                     Department of Homeland Security
  FBI                     Federal Bureau of Investigation
  ICE                     Immigration and Customs Enforcement
  IEA                     Immigration Enforcement Agent
  JTTF                    Joint Terrorism Task Force
  MOU                     Memorandum of Understanding
  OIG                     Office of Inspector General
  SBI                     Secure Border Initiative




                DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE
OIG

Department of Homeland Security
Office of Inspector General


Executive Summary

                  We reviewed the Department of Homeland Security’s (DHS) progress in
                  addressing coordination challenges between Customs and Border Protection
                  (CBP) and Immigration and Customs Enforcement (ICE). In our report, An
                  Assessment of the Proposal to Merge Customs and Border Protection with
                  Immigration and Customs Enforcement, OIG-06-04, November 2005, we
                  addressed several coordination challenges confronting CBP and ICE. In April
                  2006, the DHS Deputy Secretary responded by outlining the activities and
                  programs the department intends to implement to address the 14
                  recommendations we made to improve coordination between CBP and ICE
                  and enhance interoperability at the field level. In Appendix A, we provide our
                  analysis of DHS’ response and action plan for each of the 14
                  recommendations.

                  DHS has made significant progress toward improving coordination and
                  interoperability between CBP and ICE. DHS made organizational changes
                  within the department, including creating the Offices of Policy, Operations
                  Coordination, and Intelligence and Analysis. Senior officials of CBP and ICE
                  created the ICE-CBP Coordination Council to provide a forum to address
                  CBP and ICE policy and operational coordination issues. In addition, the
                  department established the Secure Border Initiative (SBI) and Border
                  Enforcement Task Forces.

                  However, additional work is necessary. Most notably, CBP and ICE can
                  address the remaining challenges by placing increased emphasis on (1)
                  improving communication between CBP and ICE headquarters elements and
                  all levels of field personnel; (2) improving intelligence and information
                  sharing; (3) strengthening performance measures; and, (4) addressing ongoing
                  relational issues among some elements of the two components.

                  CBP and ICE agree with our overall observation that better coordination is
                  needed between the two organizations. Both components provided a joint
                  response addressing the remaining open recommendations from the initial
                  November 2005 report. We agree with the actions taken and consider all 14
                  recommendations resolved, however, 2 recommendations remain open.




             DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                              Page 1 

Background
    Initial Review of Proposal to Merge CBP and ICE
                  In February 2005, at the request of the Chairman of the Senate Committee on
                  Homeland Security and Governmental Affairs, we began a review to
                  determine and make a recommendation as to whether CBP and ICE should
                  merge. We identified a division between CBP and ICE that created
                  breakdowns in coordination among apprehension, detention, and removal
                  efforts; interdiction and investigative work; and intelligence activities. Also,
                  new organizational obstacles developed, which undermined information
                  sharing. Finally, the organizational structure fostered an environment of
                  uncertainty and mistrust between CBP and ICE personnel. Collegial
                  interactions ought to characterize relations among the organizations, but
                  competition and interference were common. The Border and Transportation
                  Security Directorate was responsible for overseeing and integrating CBP and
                  ICE actions; however, the Directorate’s need for adequate staff and authority
                  over CBP and ICE hampered its effectiveness in achieving those goals.
                  Consequently, the Border and Transportation Security Directorate’s leadership
                  was not successful in preventing CBP and ICE from working against one
                  another in performing respective mission objectives, intervening to
                  synchronize CBP and ICE operations effectively, and resolving conflicts
                  timely.

                  We concluded that a consolidated border security agency with a single chain
                  of command would better coordinate mission, priorities, and resources to
                  facilitate a comprehensive border security program. If CBP and ICE merged,
                  the Border and Transportation Security Directorate’s role would become
                  superfluous, and, in our November 2005 report, we recommended that it be
                  disbanded.

                  In July 2005, the Secretary announced the results of a top-to-bottom review of
                  the department’s organizational structure, referred to as the Second Stage
                  Review. As a result of the Second Stage Review, the Secretary decided not to
                  merge CBP and ICE, but instead eliminated the Border and Transportation
                  Security Directorate. Subsequently, CBP and ICE became direct reports to
                  the Secretary, an effort to streamline management and increase accountability.

                  We determined that even with the reorganization, critical issues were
                  identified that required the attention of DHS leadership. In November 2005,
                  we issued our report, An Assessment of the Proposal to Merge Customs and
                  Border Protection with Immigration and Customs Enforcement, OIG-06-04.


             DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                              Page 2 

                 We made 14 recommendations to overcome interagency coordination and
                 integration challenges confronting CBP and ICE. Those recommendations
                 covered four areas, including:

                     1) Defining and communicating roles and responsibilities with respect to
                        policy and operational coordination between DHS headquarters, CBP,
                        and ICE;
                     2) Conducting integrated planning and coordination of policies and
                        resources;
                     3) Reviewing, developing, and implementing policies and procedures to
                        improve and enhance operational coordination between CBP and ICE;
                        and
                     4) Providing oversight and implementing metrics and performance
                        measures to ensure that the actions and initiatives taken or proposed
                        achieve intended results.


Results of Review
                 Coordination, interoperability, and relations between CBP and ICE have
                 improved. Both components have made progress in defining respective roles
                 and responsibilities and how personnel of each organization are to work
                 together. However, communication and cross-component understanding of
                 roles and responsibilities do not appear to have reached all levels of CBP and
                 ICE. In addition, both components share intelligence and information using
                 many methods. In some locations, ongoing information sharing and
                 cooperative efforts occur; however, in other locations, information sharing
                 between CBP and ICE needs improvement. Further, we observed that DHS is
                 committed to building performance measurement and the standard
                 infrastructure needed to accurately track program performance across the
                 department. Finally, co-location of joint task forces and cross-training
                 opportunities appear to be improving relations between CBP and ICE;
                 however, both components need continued emphasis on improving the
                 relationship and increasing cross-component understanding of policies and
                 procedures between CBP and ICE headquarters and field operational
                 elements.

     Actions Taken to Improve CBP and ICE Coordination
                 DHS has taken several actions to improve coordination, interoperability, and
                 relations between CBP and ICE. DHS made organizational changes within
                 the department following the Secretary’s Second Stage Review. In addition to


            DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                             Page 3 

     eliminating the Border and Transportation Security Directorate, DHS took
     further action to improve operational coordination between CBP and ICE and,
     across the department, by creating the Offices of Policy, Operations
     Coordination, and Intelligence and Analysis. At the Secretary’s direction,
     CBP and ICE senior officials created the ICE-CBP Coordination Council.
     The department established SBI and Border Enforcement Security Task
     Forces, and revised the Investment Review Process to monitor and align
     budget priorities across DHS.

     ICE-CBP Coordination Council

     Created in December 2005, the ICE-CBP Coordination Council provides
     senior CBP and ICE officials with a forum to proactively address and resolve
     challenges hampering the components’ ability to effectively coordinate
     operations and share information. Members of the Council include the
     Commissioner for Customs and Border Protection, the Assistant Secretary for
     Immigration and Customs Enforcement, and other senior-level officials of
     both organizations. The Council meets as necessary to discuss and resolve
     issues involving CBP and ICE policies and operational coordination. The
     Council has issued joint memoranda regarding specific roles and
     responsibilities and operational coordination.

     Many Council issues are first discussed in lower level working groups, such
     as the CBP Field Operations/ICE Investigations Working Group, the CBP
     Border Patrol/ICE Investigations Working Group, the Technology Solutions
     Working Group, and other working groups looking at specific issues such as
     intelligence sharing. CBP and ICE personnel work together to identify and
     agree on solutions for the Council’s review. For example, the CBP Border
     Patrol/ICE Investigations Working Group drafted an addendum to the
     November 2004 Border Patrol/Investigations Memorandum of Understanding
     (MOU), which is intended to clarify and provide guidance on remaining and
     new issues affecting interactions between Border Patrol and Investigations.
     However, during our review, senior CBP and ICE officials had not approved
     the addendum.

     Secure Border Initiative

     Announced by DHS in November 2005, SBI is a comprehensive multi-year
     plan to control U.S. borders and reduce illegal immigration. The goal of SBI
     is to link technology, infrastructure, command and control, communications,
     and personnel into a comprehensive border enforcement approach. DHS’
     vision for SBI includes increasing staffing for CBP and ICE; expanding
     detention and removal capabilities; upgrading and expanding use of
     technology; enhancing infrastructure improvements along the border; and


DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                 Page 4 

                         increasing interior enforcement. With SBI, DHS plans to have operational
                         control of the northern and southern borders within five years.

                         Within its first year, SBI has had some notable successes. For example,
                         through increased detention capabilities and expanded use of expedited
                         removal, DHS has made significant progress toward ending its past practice of
                         “catch and release.” Under SBI, ICE’s Detention and Removal Operations
                         has added 6,300 beds, including 500 beds for family units, in detention
                         facilities along the southern border since November 2005. The increased bed
                         space has allowed almost all illegal aliens apprehended along the southern
                         border to be detained pending removal proceedings. In addition, the use of
                         expedited removal has decreased the time it takes to return most non-Mexican
                         aliens to their country of origin from 90 days to 21 days or less. As a result,
                         by August 2006, 99% of apprehended illegal aliens were being detained and
                         processed for removal.

                         Expedited removal allows authorized CBP staff to issue a removal order
                         without presenting the case to an immigration judge. In the past, due to high
                         numbers of individuals being apprehended along the U.S. border and
                         limitations on DHS’ ability to detain and return illegal aliens to their country
                         of origin, most apprehended illegal aliens were not detained. Instead, most
                         apprehended illegal aliens were processed, issued a notice to appear before an
                         immigration judge, and released into the United States. However, most illegal
                         aliens never return for their hearing and continue to live illegally in the United
                         States. Now, aliens in the expedited removal process must be detained until
                         they are removed, unless they have been determined to have a credible fear of
                         persecution upon return to their country of origin.1

                         Use of expedited removal with Salvadorans is hindered by the Orantes
                         permanent injunction, issued in 1988, which requires the U.S. Government to
                         notify apprehended Salvadorans of their right to a hearing before an
                         immigration judge. It also limits transferring a detained, unrepresented
                         Salvadoran out of the jurisdiction of apprehension for seven days.2 In
                         addition, Cubans arriving by air at ports of entry, unaccompanied minors, and
                         Salvadorans and Guatemalans who were members of the Class Action
                         Settlement in American Baptist Churches v. Thornburgh3 are not subject to
                         expedited removal.4



1
  8 USC § 1225(b)(1)(B)(iii)(IV). 

2
  Orantes-Hernandez v. Meese, 685 F.Supp 1488 (C.D. Cal 1988); as modified by 2006 U.S. Dist. LEXIS 95388

(October 11, 2006). 

3
  760 F.Supp 796 (N.D. Cal. 1991). 

4
  69 Fed. Reg. 48877, August 11, 2004. 



                   DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                                    Page 5 

     In May 2006, the President announced Operation Jump Start. This effort
     supports Border Patrol operations by assigning National Guard troops to non-
     law enforcement duties along the southwest border. Operation Jump Start was
     intended to be a two-year program to provide up to 6,000 National Guard
     troops in the first year, and up to 3,000 National Guard troops in the second
     year, along the U.S. – Mexican border to support Border Patrol operations
     while Border Patrol hires and trains 6,000 new agents.

     Under Operation Jump Start, National Guard troops perform non-law
     enforcement duties that Border Patrol agents usually perform. Such duties
     include operating surveillance cameras and communications equipment,
     manning Entry Identification Teams, performing vehicle maintenance, and
     assisting with tactical infrastructure enhancements, such as building or
     maintaining border roads and the placement of ground sensors. As of July
     2006, because of Operation Jump Start, 250 Border Patrol agents were able to
     return to direct law enforcement activities on the southwest border.

     SBInet, a key element of SBI, intends to integrate cross-organizational
     technological operations. Specifically, SBInet is to integrate technological
     tools to detect, characterize, and identify intrusions, and allow for real-time
     communication with Border Patrol agents to determine the most effective way
     to interdict and apprehend individuals who illegally cross our borders. When
     fully developed, SBInet should provide a common operational picture to
     facilitate collaborative planning and enhance awareness of requirements and
     trends at the border. The initial focus of SBInet will be deterrence efforts
     between ports of entry along the southwest border. In the long-run, SBInet
     should be an effective tool to assist high-level decision makers in developing
     strategic, tactical, and operational plans, and prioritizing and aligning policies
     with resources. On September 21, 2006, DHS announced that The Boeing
     Company would be the prime contractor and integrator for SBInet. CBP’s
     SBI Program Management Office will lead, manage, and work with Boeing to
     develop, implement, and manage SBInet.

     Border Enforcement Security Task Forces

     Border Enforcement Security Task Forces are intelligence-driven units whose
     mission is to combat cross-border criminal activity. Border Enforcement
     Security Task Forces include personnel from ICE, CBP, and DHS’ Office of
     Intelligence and Analysis, other federal, state, and local law enforcement
     agencies, and representatives from the Mexican government. By integrating
     intelligence, investigative, and interdiction efforts, Border Enforcement
     Security Task Forces share information, identify and develop suspects or
     potential targets for investigation, and execute coordinated law enforcement
     operations to decrease cross-border crime and enhance border security.


DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                 Page 6 

     The Border Enforcement Security Task Force concept originated with
     Operation Black Jack, a local initiative started in Laredo, Texas, to combat
     cross-border violence related to drug and gang activities. Operation Black
     Jack became the first Border Enforcement Security Task Force, and has been
     successful in addressing cross-border violence and criminal activity, such as
     narcotics and currency smuggling. Building upon the Laredo Border
     Enforcement Security Task Force successes, DHS is establishing a second
     Border Enforcement Security Task Force in Tucson, Arizona, that will focus
     on specific vulnerabilities and threats identified along that part of the
     southwest border.

     While initial Border Enforcement Security Task Forces will focus efforts
     along the southwest border, future Border Enforcement Security Task Forces
     will be established in locations where specific vulnerabilities exist based on
     threat assessments, including along the northern border or in the interior of the
     United States. Along the northern border, it is not clear how a Border
     Enforcement Security Task Force would operate differently from Integrated
     Border Enforcement Teams, which jointly investigate cross-border criminal
     and terrorist activity along the U.S. – Canadian border. They are cooperative,
     intelligence-driven efforts that support border integrity and security by
     identifying, investigating, and interdicting persons and organizations that pose
     a threat to national security or are engaged in other organized criminal
     activities between ports of entry. On December 21, 2001, the United States
     and Canada signed the Smart Border Declaration, a plan to enhance security
     while facilitating the legitimate flow of people and goods on the northern
     border. Integrated Border Enforcement Teams operate in 15 regions along the
     northern border.

     Border Enforcement Security Task Forces will work in conjunction with other
     existing task forces, such as Federal Bureau of Investigation (FBI)-led Joint
     Terrorism Task Forces (JTTF), which are multi-agency task forces with the
     mandate to investigate and respond to terrorism and its financing. However,
     care should be taken to avoid duplication of efforts with Integrated Border
     Enforcement Teams along the northern border.

     Investment Review Process

     Through the Investment Review Process, DHS monitors and guides the
     overall balance between CBP and ICE regarding resources and budget
     requirements. The revised Interim Management Directive 1400, signed by the
     Chief Financial Officer on March 3, 2006, governs the Investment Review
     Process. While not published in the department’s Management Directive
     System, it is the current effective version.


DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                 Page 7 

            The Investment Review Process facilitates collaboration among the Under
            Secretary for Management, the Chief Financial Officer, CBP, and ICE on
            budget formulation and strategic planning to ensure alignment with the
            department’s strategic plans and mission. According to DHS budget
            personnel, the Chief Financial Officer is responsible for developing an
            integrated budget reflecting requirements across DHS, not just CBP and ICE.

            DHS achieves its oversight and management objectives through the
            Investment Review Board and the Joint Requirements Council. The
            Investment Review Board reviews investments for proper management,
            oversight, accountability, and alignment with DHS strategic goals, and is the
            approval authority for contracts exceeding $100 million. The Deputy
            Secretary chairs the Investment Review Board, which comprises senior DHS
            management officials. The Joint Requirements Council approves contracts
            between $50 million to $100 million, and makes recommendations to the
            Investment Review Board regarding contracts exceeding $100 million. The
            Joint Requirements Council comprises senior managers from each DHS
            component.

Roles, Responsibilities, and Communication
            CBP and ICE have made progress in defining roles and responsibilities, and
            how personnel of each organization are to work together. Joint memoranda
            directed to field components have clarified and provided guidance regarding
            responsibilities. However, communication and cross-component
            understanding of roles and responsibilities do not appear to have reached all
            levels of CBP and ICE. Further, differences in how senior management
            officials in the field interpret some joint directives issued by CBP and ICE
            headquarters appear to have contributed to different implementation of those
            directives.

            Relationship Between CBP Field Operations and ICE Investigations

            For example, a December 8, 2005, memorandum issued by senior officials of
            both CBP Field Operations and ICE Investigations recognized ICE
            Investigations as the primary investigative arm for CBP Field Operations, and
            CBP Field Operations as responsible for interdictions within each port of
            entry’s area of jurisdiction. The memorandum provided guidance on a
            number of issues, including intelligence and information sharing, the Third
            Party Rule, and the exchange of information between Investigations and Field
            Operations regarding case outcomes. Agencies must follow specific
            procedures when sharing information or intelligence with a third-party
            agency. CBP’s Office of Regulations and Rulings determined that any entity


       DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                        Page 8 

     under the umbrella of DHS is not considered a third-party agency. Therefore,
     as noted in the memorandum, DHS components, such as CBP and ICE, are
     allowed to share information or intelligence with each other on a “need to
     know basis,” except for European Union Passenger Name Record data.

     Field personnel in some locations we visited said appropriate information
     could be shared between CBP and ICE freely and that third-party issues have
     been resolved. In other locations visited, CBP and ICE field personnel said
     CBP can provide information to ICE agents, but that printouts of the
     information and documents cannot be provided or have to be redacted before
     being given to ICE. Also, both CBP and ICE field personnel said there is no
     formal method to exchange information on case outcomes, and unless an
     individual officer or an agent involved in the case follows up personally,
     information usually is not shared. An information exchange loop between
     CBP and ICE field personnel would greatly increase understanding of each
     other’s operational roles and responsibilities.

     Referrals from CBP to ICE Clarified

     A May 10, 2006, memorandum issued by CBP’s Acting Commissioner and
     ICE’s Assistant Secretary provided clarification and guidance on referrals
     from CBP to ICE. When CBP apprehends illegal aliens or seizes contraband,
     it refers the information to ICE for further investigation of potential
     smuggling, money laundering, human trafficking, or other criminal activity.
     Many CBP and ICE field personnel said they did not feel the topics addressed
     in the memorandum were issues in their location. For example, CBP and ICE
     field personnel in many locations said CBP already notifies ICE of all
     apprehensions or seizures in which CBP is required to notify a different
     agency or task force for follow up investigation. However, in other locations,
     field personnel said the memorandum provided much needed clarification and
     helped resolve outstanding issues in those locations. For example, an ICE
     agent in one location said the memo resolved differences of interpretation
     between the leadership in that location, and allowed agents to point to a
     document that clarified the party responsible for a particular task.

     Effectiveness of Memoranda of Understanding

     Existing MOUs continue to guide Border Patrol’s interactions with ICE’s
     Office of Investigations. We received mixed reactions and opinions in the
     field regarding the effectiveness of the November 2004 MOU between CBP’s
     Border Patrol and ICE’s Investigations. Some field personnel said the MOU
     helped resolve issues of responsibility and that the relationship between
     Border Patrol and Investigations is improving. Others said differences in
     interpreting the MOU have raised new issues regarding Border Patrol agent


DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                 Page 9 

     and ICE agent roles and responsibilities, and the relationship has not changed.
     For example, an ICE agent in one location said there is now more friction
     regarding who is responsible for what tasks. Additionally, lower level Border
     Patrol agents do not appear to know of the MOU. A Senior Border Patrol
     agent in the same sector said the MOU has not had an effect on interactions
     with ICE Investigations and that the agencies are operating in the same
     manner as before. In addition, Border Patrol is still governed by a pre-DHS
     MOU with the Drug Enforcement Administration (DEA), which requires
     Border Patrol to refer its narcotics seizures to DEA for investigative follow
     up. As a result, Border Patrol provides notification to ICE of seizures, but
     must continue to refer narcotics seizures to DEA even though ICE
     Investigations is the investigative arm for Border Patrol. Many CBP and ICE
     officials said the Border Patrol-DEA MOU should be reviewed; however, at
     the time of our review, DHS had no formal plan to review the MOU.

     Transportation of Detained Illegal Aliens

     In many locations where ICE’s Detention and Removal Operations does not
     have sufficient resources to conduct all necessary transportation, CBP’s Field
     Operations or Border Patrol continue to assist. As a result, CBP officers and
     Border Patrol agents are pulled from their duties at ports of entry or along the
     border to transport illegal aliens to detention facilities. To free officers and
     agents from transportation duties and allow them to remain on the border or at
     ports of entry, CBP established a contract to provide land transportation
     services for Border Patrol in the nine southwest border sectors.

     Role of Immigration Enforcement Agents

     In addition, Immigration Enforcement Agents (IEA) assigned to Border Patrol
     stations continue to be limited to transportation duties even though all IEAs
     assigned to Border Patrol have received training to perform all duties of the
     position. For administrative purposes—i.e., salary, leave approval,
     performance appraisals, and disciplinary actions—these IEAs remain ICE
     employees; however, for day-to-day duties, they report to Border Patrol
     supervisors. At times, reporting to two supervisors has led to confusion and
     low morale among these IEAs. For example, a Border Patrol supervisor
     would not have the authority to discipline an IEA directly, but an ICE
     supervisor might be hesitant to discipline an IEA not under their direct
     supervision. Senior CBP and ICE officials said they are working on a plan to
     return IEAs assigned to Border Patrol stations along the southern border to
     Detention and Removal Operations, which should occur after the CBP
     transportation contracts are completed. Field personnel expect northern
     border IEAs to return to Detention and Removal Operations also, but it was
     unclear when this would occur.


DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                Page 10 

             Use of Air and Marine Resources

             CBP’s Air and Marine Operations supports CBP, ICE, and other federal, state,
             and local law enforcement agencies. During our fieldwork, we were told of
             concerns about both air and marine operations. For example, because many
             air assets have been temporarily assigned to Arizona to support the Arizona
             Border Control Initiative, other sectors, such as Laredo, Texas, do not have
             the air resources to support operations within their sector. The Arizona
             Border Control Initiative, implemented in March 2004, is an effort to reduce
             illegal aliens and contraband flowing across the Arizona border from Mexico.

             Additionally, Border Patrol maintains tactical control of air operations and all
             marine operations except for those in coastal sectors. ICE field personnel said
             Border Patrol’s tactical control of air operations has made it difficult for ICE
             to receive support for long-range air operations because each sector chief and
             CBP headquarters must approve the use of air assets within each sector. For
             example, if ICE requests air support to transport people or narcotics from the
             Tucson Sector to the Laredo Sector, all sector chiefs between Tucson and
             Laredo—Tucson, El Paso, Marfa, Del Rio, and Laredo—and CBP
             headquarters would need to approve the use of such air support before ICE
             could receive it. When timeliness is critical for an operation, this approval
             process has resulted in ICE operations not receiving air support. As a result,
             several ICE agents said they have stopped requesting air support from CBP’s
             Air and Marine Operations. According to CBP headquarters, the Border
             Patrol sector chief is usually the CBP official who approves aviation support
             to ICE's Office of Investigations. Additionally, only the Border Patrol sector
             chief in the sending sector is required to approve air support, and the receiving
             sector may be notified as a courtesy. While a review of CBP’s Air and
             Marine Operations is not within the scope of this review, we believe several
             coordination issues raised warrant further attention and review by our office.
             CBP and ICE should jointly pursue clarification of or an alternative to the
             current approval process that sufficiently addresses this situation.

Strategic Planning
             DHS headquarters, CBP, and ICE have conducted strategic planning to align
             priorities with the overall department mission and ensure policies are
             coordinated between CBP and ICE. The DHS strategic plan calls for
             increasing internal coordination to foster cross-component initiatives and
             integrate common administrative and information systems in DHS. CBP and
             ICE strategic plans reference current and future interagency coordination.
             This forward-looking planning targets strengthened immigration enforcement,



        DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                        Page 11 

     enhanced coordination of seizures, detention, and removal operations, and
     increased participation at the National Targeting Center.

     The National Targeting Center is the coordination point for all CBP anti
     terrorism efforts. It uses sophisticated information-gathering techniques and
     intelligence to provide target-specific information to field offices. The
     National Targeting Center works with CBP Intelligence and ICE agents to
     share information and issue advisories on immediate threats to ports of entry
     and the U.S. border.

     Strategic Planning Efforts

     DHS’ work in securing the border is mostly done through existing operational
     components and support staff. The DHS Secretary has created a Secure
     Border Coordination Council, chaired by the Deputy Secretary, which
     includes six senior DHS executives responsible for border security. The
     Executive Director at the CBP SBI Program Management Office also serves
     as the Executive Director for the Council. This Council focuses DHS’
     leadership team on progress required of SBI to achieve the comprehensive
     immigration reform and homeland security priorities described in the Secure
     Border Strategic Plan.

     Dissemination of Results

     Although issues are often decided upon at the CBP and ICE headquarters
     levels, resolution is not always effectively relayed to field officers and agents.
     For example, a second line supervisor at an ICE field office strongly
     recommended to us that CBP and ICE agree that ICE is the investigative arm
     for border enforcement activities. That supervisor was unaware that CBP and
     ICE senior headquarters officials had already issued joint memoranda
     recognizing ICE Investigations as the investigative arm for CBP Field
     Operations and Border Patrol, respectively.

     Electronic media, such as email, or personal contact in musters are the most
     common methods for relaying updates and changes in policies and procedures
     to field personnel. Some officers and agents said those avenues are not an
     effective means to convey policy or procedural changes or issue resolution
     because there is limited follow up regarding policy or procedural changes
     distributed through those avenues. For example, several officers and agents
     indicated they receive multiple emails distributing new policies or directives
     daily, and they are unable to recall later whether they received a specific
     directive. Further, we were told that these avenues might not convey fully the
     actions taken by CBP and ICE headquarters to resolve issues. Reinforcement



DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                Page 12 

            and better dissemination mechanisms for resolutions, policies, and procedures
            could enhance the relationship between CBP and ICE at the field level.

CBP and ICE Resource Planning
            CBP and ICE compete for finite departmental resources. Although CBP and
            ICE develop separate budgets, through joint planning of resources and
            operations, CBP and ICE are better able to fully employ their operational
            abilities to achieve both interconnected missions. DHS plans to ensure
            collaboration on budgeting and resource planning through its Chief Financial
            Officer, the Investment Review Process, and the SBI Program Executive
            Office.

            Although DHS proposes the Investment Review Process as a solution to
            monitor and align budget priorities, program officials responsible for
            coordinating the process were not able to provide us with CBP- and ICE-
            specific issues addressed through the Investment Review Process. However,
            senior DHS officials said CBP and ICE have participated on the Investment
            Review Board and the Joint Requirements Council. Further, even though
            CBP and ICE do not jointly develop or exchange budgets, both do have the
            opportunity to review and comment, as well as influence one another’s
            funding priorities through the Investment Review Process.

            The SBI Program Executive Office has encouraged and facilitated exchange
            and resource planning between CBP and ICE. The SBI strategy proposes a
            comprehensive, systematic approach to border security by controlling and
            securing the borders and enforcing immigration laws. Both CBP and ICE,
            with their respective and mutually dependent charges of border and
            immigration enforcement, are key to SBI. Each is actively involved in
            requirements development and planning for SBInet. Although CBP is
            administering the development of the SBInet contract, ICE also is involved in
            conveying requirements. We are encouraged by the initial coordination and
            planning efforts that CBP and ICE have exhibited to further SBI and leverage
            finite departmental resources.

Operational Coordination and Conflict Resolution
            DHS has made significant progress in enhancing operational coordination
            between CBP and ICE. Several successful joint operations have been
            conducted. The ICE-CBP Coordination Council was established to coordinate
            policies and operations and resolve disputes at the headquarters level. While
            formal processes are not in place in the field, conflicts regarding policies or
            operations appear to be resolved more effectively through existing chains of
            command.

       DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                       Page 13 

                          Joint Operations

                          CBP and ICE have coordinated effectively to conduct several successful joint
                          operations. Border Patrol and Detention and Removal Operations coordinated
                          and successfully conducted Operation Texas Hold’em. This 60-day effort
                          addressed an increase in illegal border crossings within Border Patrol’s Rio
                          Grande Valley Sector by detaining and processing for expedited removal all
                          illegal Brazilian nationals. The operation resulted in a 90% decrease in the
                          number of Brazilian nationals attempting to cross the border illegally into the
                          Rio Grande Valley Sector, establishing a deterrent effect that has been
                          maintained. As a result, the operation was expanded, and as of July 2006, it
                          covers all nationalities except Cubans and El Salvadorans.5 In addition, in
                          several locations, CBP and ICE personnel coordinate to conduct joint
                          outbound operations at airports to detect large amounts of currency or other
                          contraband leaving the United States.

                          Dispute Resolution

                          The ICE-CBP Coordination Council has been an effective forum for resolving
                          disputes between both organizations at the headquarters level. Issues that
                          cannot be resolved to the mutual satisfaction of CBP and ICE leadership are
                          elevated to DHS’ Secretary for further direction or resolution. One such issue
                          has been referred to the Secretary. While there is no formal dispute resolution
                          mechanism in place at the field level, field personnel at all levels said most
                          issues are resolved informally and in a timely manner, often relying on
                          personal relationships. Issues not resolved at the agent-to-agent or supervisor-
                          to-supervisor level are raised through the respective chains of command as
                          necessary until resolved. Field personnel said very few issues remain
                          unresolved in the field requiring referral to headquarters for resolution.
                          However, some field personnel did express a desire for a procedure to allow
                          concerns to be raised anonymously, due to fears of retaliation. CBP and ICE
                          should jointly pursue a method that addresses this concern.


        Intelligence and Information Sharing
                          CBP and ICE share intelligence and information using many methods,
                          including intelligence reports issued by DHS intelligence centers, joint task

5
 Most Cubans are not detained pursuant to the Administration’s “wet feet/dry feet” policy with regard to apprehended
Cubans. Cubans, who do not reach the U.S. shore–“wet feet,”–are returned to Cuba unless they cite fears of persecution.
Cubans, who successfully reach the U.S. shore–“dry feet,”–are inspected by DHS, allowed to remain in the United
States, and qualify for expedited legal permanent resident status after one year.


                    DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                                    Page 14 

     forces and intelligence groups, data systems such as the Treasury Enforcement
     Communications System, and informal conversations between staff. In some
     locations, on-going sharing and cooperative efforts occur, such as Intelligence
     Collection and Analysis Teams. Intelligence Collection and Analysis Teams
     are ICE intelligence units that collect and analyze all-source tactical and
     operational intelligence on narcotics smuggling and money laundering for
     front line CBP officers and ICE agents. Senior CBP and ICE officials said
     effective information sharing often depends on pre-DHS working
     relationships. Many CBP and ICE employees worked with one another at
     legacy agencies and continue to maintain professional ties. In other locations,
     however, information sharing between CBP and ICE is ineffective. For
     example, CBP officials in Chicago, Illinois, executed an operation targeting
     fraudulent documents; however, CBP did not inform ICE agents of the
     operation prior to its start. As a result, the unexpected increase of seizures and
     cases being referred for investigation overwhelmed ICE agents. While CBP
     and ICE officials quickly resolved the issue, better information sharing would
     have facilitated ICE’s preparation for a large influx of new cases.

     Senior officials cited efforts to improve information sharing not only between
     CBP and ICE, but also with other DHS components. In those cases,
     information sharing occurred informally or in working groups. For example,
     in some locations, high-level field personnel participate in monthly DHS
     partners meetings where CBP and ICE are able to establish and build
     relationships with their counterparts and informally address issues of mutual
     concern. In addition, when necessary, CBP Field Operations, Border Patrol,
     and ICE managers in Laredo and Brownsville, Texas, meet informally to
     share information and resolve operational differences.

     Co-location and the development of joint work teams also appear to be key to
     improving information sharing between CBP and ICE. Examples of
     collaboration include forums such as Intelligence Collection and Analysis
     Teams, JTTFs, Border Enforcement Security Task Forces, Integrated Border
     Intelligence Teams, and Border Intelligence Centers. Integrated Border
     Intelligence Teams are intelligence-driven law enforcement teams, comprised
     of U.S. and Canadian officials, which produce intelligence to support
     Integrated Border Enforcement Teams along the northern border. Border
     Intelligence Centers, formerly Command and Control Intelligence
     Coordination Centers, are Border Patrol-led centers that process immigration
     and customs intelligence. Border Patrol has invited ICE to participate in
     Border Intelligence Centers; however, because of resource constraints, ICE
     has not been able to provide a representative in all locations.

     We were told that having both CBP and ICE representatives assigned to a
     JTTF facilitates information flow between CBP and ICE in that location.


DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                Page 15 

            DHS, CBP, and ICE headquarters senior level officials should ensure that
            joint task forces and intelligence groups are effectively staffed with both CBP
            and ICE representatives, and other DHS components as necessary.

            While information sharing is improving in some areas, in many instances,
            more could be done to facilitate sharing and cooperative efforts between CBP
            and ICE. Both CBP and ICE officials said they occasionally receive
            intelligence or operational information regarding each other’s activities from
            other law enforcement agencies outside of DHS. ICE officials said it is not
            unusual for agents to learn about a narcotics seizure at the border from DEA
            rather than from Border Patrol. CBP officials cited numerous examples of
            ICE not informing them of investigative operations within their area of
            responsibility. A CBP official said these unknown investigative operations
            create a concern for officer safety, especially in remote areas. At times, CBP
            and ICE would find that both were investigating the same targets, but neither
            would know of this beforehand. For example, CBP officials in Miami,
            Florida, said they occasionally interdict boats used to smuggle aliens or
            narcotics and discover the boat was being tracked as part of an ICE
            investigation. CBP and ICE should jointly pursue a process that sufficiently
            addresses this concern with an abundance of concern for officer safety.

Establishing Performance Metrics and Standards
            Departmental officials have been active and effective in establishing both
            formal and informal procedures to provide coordinated program oversight and
            accountability for CBP and ICE components. The department has made
            significant progress since November 2005 developing its strategic plan, which
            is in the final drafting stages. We observed that DHS is committed to building
            performance measurement and the standard infrastructure needed to
            accurately track program performance across the department. Current
            performance metrics are being used primarily as a quantitative measuring tool,
            and do not include qualitative measures to verify and validate performance
            data provided by components.

            Also, improvements to the current system require integration of predictive
            modeling capabilities that would provide decision makers with the ability to
            pose theoretical queries and forecast probable outcomes, so that department
            resources could be aligned accordingly. For example, had such capabilities
            existed during the planning stages of the Arizona Border Control Initiative,
            decision makers could have been able to predict the effect of large increases in
            apprehensions on available detention space; or, the effect of transferring air
            assets to the Tucson Sector on other sectors’ ability to provide air support for
            ICE Investigations when requested. Additionally, because there are no
            department-wide standards, components such as CBP and ICE are using a


       DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                       Page 16 

     number of quantitative measures to monitor program progress and success.
     Ideally, a system should be established to measure and monitor department
     performance, starting with program processes and inputs, and extending to
     outputs, outcomes, and long-term effects.

     As discussed in its April 2006 response, in the near term, the department is
     focusing on performance management efforts to improve the collection,
     verification, and validation of performance data; strengthen the number of
     goals and measures in its strategic plans; and improve coordination and
     alignment between its planning, financial, and budget processes. However,
     several steps have been taken to address reported shortcomings. For example,
     a Special Assistant to the Secretary has been hired to oversee department-wide
     performance metrics implementation, monitoring, and reporting. The Special
     Assistant is responsible for coordinating and implementing new metrics and
     monitoring program performance against established objectives.

     The department is working with components, such as CBP and ICE, to
     address some of the more complex crosscutting issues associated with SBI
     activities and requirements. For example, Border Patrol and Detention and
     Removal Operations are developing an automated data sharing architecture
     for SBI-related issues, which is intended to improve existing processes and
     result in faster processing of illegal aliens. This integrated approach allows
     ICE to detain more aliens within current resource capabilities and supports the
     Secretary’s goal to end catch and release.

     Further, Detention and Removal Operations created a Technology Solutions
     Working Group to establish specific metrics related to SBI goals. The
     working group consists of representatives from Border Patrol, Investigations,
     and Detention and Removal Operations, and is working to assess the
     capabilities of existing ICE information systems to provide valid and reliable
     SBI performance metrics. Also, this working group is developing and
     identifying performance measures that could be used to determine the
     effectiveness of specific SBI related goals—SBI Metrics.

     Both CBP and ICE are actively engaged in the collection and analysis of data
     to document achievement of key goals and other operational plans, and to
     report on the return on investment of particular programs. For example,
     Border Enforcement Security Task Forces provide weekly statistical reports to
     CBP and ICE headquarters on the progress related to border and cross-border
     criminal activities, and CBP’s Air Operations provides data on the number of
     missions it conducts in support of Border Patrol and ICE operations. Border
     Patrol has firmly embraced the concept of performance metrics by initiating
     its own Measurement Implementation Plan related to Border Patrol
     checkpoint operations throughout the United States. The overall strategy of


DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                Page 17 

                         the plan is to establish measurement activities within Border Patrol that are
                         aligned with Border Patrol goals and priorities, while meeting information
                         needs for operations and senior level management oversight.6

        Efforts to Effect Change
                         Co-location of joint task forces and cross training opportunities appear to be
                         improving relations between CBP and ICE. Continued emphasis on
                         improving the relationship and increasing transparency between CBP and ICE
                         headquarters and field operational elements should promote positive change
                         and improve coordination, interoperability in the field, and relationships in the
                         areas of apprehension, detention, and removal; interdiction and investigation;
                         and intelligence activities for both components.

                         However, some ICE agents have not fully embraced the coordination
                         necessary to conduct business effectively, and new policies have not been
                         institutionalized. Also, some ICE agents are reluctant to execute both
                         immigration and customs authorities, as some legacy customs agents continue
                         to want to focus exclusively on customs cases because that is why they joined
                         ICE. Some of those agents feel promotional potential will decline if they
                         work on immigration cases instead of complex customs investigations. Some
                         CBP and ICE officials said legacy customs agents are not able to prosecute
                         immigration violations because they do not have immigration experience. In
                         addition, some legacy immigration agents said they always get “stuck” with
                         immigration cases and receive few customs investigations.

                         Further, in some locations, the relationship between CBP Border Patrol and
                         ICE Investigations continues to be strained, as has been the situation in the
                         past. To some extent, the strained relationship can be attributed to the
                         different actions required to meet both respective missions. For example,
                         Border Patrol needs to deter, detect, and interdict illegal border crossings; ICE
                         needs some contraband and smugglers to be allowed into the country for
                         investigative purposes. Border Patrol agents said that ICE does not routinely
                         share actionable intelligence, but that ICE then says that contraband seized by
                         Border Patrol often is related to a pending ICE investigation. In addition, ICE
                         agents said that when information on pending investigations is provided to
                         Border Patrol, Border Patrol uses it to interdict incoming contraband or
                         smugglers, which disrupts the ICE investigation.

                         In locations where field commanders had established strong, collaborative
                         relationships with local counterparts, relationships between line personnel in

6
 Office of Border Patrol Measurement Implementation Plan Checkpoint Measures, Overall Strategy and Objective,
March 27, 2006. Version 1.0


                    DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                                    Page 18 

               those locations were positive. The converse is true for relationships between
               line personnel in field locations where relations among local leadership were
               less positive and collaborative. Co-location of CBP and ICE personnel in
               intelligence groups or joint task forces, such as the Laredo Border
               Enforcement Security Task Force, also appear to improve relations between
               CBP and ICE in those locations. In addition, in some locations, CBP and ICE
               personnel have attended joint training or provided instruction to their
               counterparts on procedures, such as processing of illegal aliens, which appears
               to increase understanding of the counterpart’s roles and responsibilities.

               Many field personnel—particularly line officers and agents—are uninformed
               of headquarters efforts to resolve issues between CBP and ICE. To be
               successful in its efforts to effect change within CBP and ICE, DHS must
               ensure that field directors, supervisors, and agents are made aware of new
               protocols and policies timely. Further, DHS should ensure that field directors
               and supervisors understand the functions and purposes of newly established
               councils and working groups, and encourage them to seek the advice of their
               respective members on local issues needing attention or clarification.


Management Comments and OIG Analysis
               CBP and ICE responded jointly to address each of the six remaining open
               recommendations. See Appendix D to review their joint response. Following
               our review of the response, we consider the six remaining recommendations
               resolved, however, two recommendations remain open.

               Several issues were nearing resolution when our draft report was issued.
               Some of these issues have since been finalized. For example, a $50 million
               contract was awarded to provide Border Patrol with land transportation
               services. As a result, Border Patrol agents have been relieved of
               transportation assignments and have returned to traditional border
               enforcement operations.

               In addition, CBP and ICE have negotiated the return of ICE IEAs temporarily
               assigned to the Border Patrol on the southern border, the coastal and northern
               sectors, and at the Tucson Transition Center, which is a joint Border Patrol
               and ICE detention and processing facility. These IEAs returned to the
               operational control of their respective ICE field offices effective December
               10, 2006. ICE agreed to continue providing services performed by the
               returning IEAs through September 30, 2007, including detention
               responsibilities at the Tucson Transition Center and transportation duties for
               the northern and coastal border sectors.


          DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                          Page 19 

     Further, the Secure Border Coordination Council, created by DHS’ Secretary
     and chaired by the Deputy Secretary, focuses DHS’ leadership team on
     progress required of SBI to achieve the comprehensive immigration reform
     and homeland security priorities described in the Secure Border Strategic
     Plan.

     Recommendation 2: Develop a vision of how ICE and CBP are to work
     together and contribute to the overall DHS mission. Consistent with this
     vision, the Operations Coordination Office and Under Secretary for Policy
     should work with CBP and ICE to define and set their respective roles and
     responsibilities. At minimum, clarification needs to be provided in the
     following areas:

         • 	 ICE’s role at ports of entry and the establishment of its jurisdictional
             authorities in consideration of CBP authorities.
         • 	 CBP’s role in referring case leads to ICE; ICE’s role in responding to
             case referrals from CBP.
         • 	 ICE’s Detention and Removal Operations transportation and CBP
             support roles.

     CBP and ICE Update: CBP and ICE concur and believe that both remaining
     issues have been resolved.

     1. Status of the CBP Office of Border Patrol and ICE Office of Investigations
     MOU addendum.

     CBP’s Office of Border Patrol and ICE’s Office of Investigations referred the
     addendum to the ICE/CBP Council for review in November 2006. The
     ICE/CBP Council directed that Border Patrol and ICE’s Office of
     Investigations continue to work to resolve one outstanding issue. The
     necessary modifications to the addendum were completed and the Assistant
     Secretary for ICE and the Commissioner of CBP signed the addendum.

     2. 	Land Transportation Contracts.

     On August 29, 2006, The Wackenhut Corporation was awarded a $50 million
     contract to provide Border Patrol land transportation service for the nine
     southwest border sectors. The contract has four option years with a potential
     total cost of $250 million. By providing contract transportation officers,
     Border Patrol agents have been relieved of transportation assignments and
     have returned to traditional border enforcement operations.

     Pursuant to the MOU, ICE and CBP have also successfully negotiated the
     return of ICE IEAs temporarily assigned to the Border Patrol on the southern


DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                Page 20 

     border, the coastal and northern sectors, as well as the Tucson Transition
     Center. These IEAs were returned to the operational control of their
     respective ICE field offices effective December 10, 2006. As part of the
     negotiation, ICE agreed to maintain responsibilities consistent with the
     services performed by the returning IEAs through September 30, 2007, to
     include detention responsibilities at the Tucson Transition Center that were
     provided by approximately 23 IEAs and transportation duties for the northern
     and coastal border sectors that were provided by approximately 43 IEAs.

     Accordingly, CBP and ICE request that this recommendation be deemed
     resolved and closed.

     OIG Analysis of CBP and ICE Update: We concur with the additional
     actions taken by CBP and ICE. This recommendation is resolved and closed.
     No further reporting is necessary.

     Recommendation 3: Communicate roles and responsibilities to all levels of
     CBP and ICE so that they are understood throughout the organizations. It is
     paramount that CBP and ICE employees understand their individual and
     institutional roles and responsibilities and the relationship of these to the roles
     and responsibilities of those of the other agency.

     CBP and ICE Update: CBP and ICE concur and believe that this
     recommendation has been resolved. Seamless cooperation and
     communication, from both an inter- and intra-component perspective, are
     attainable hallmarks as both components strive to achieve a single DHS
     culture. Greater cooperative efforts between CBP and ICE have been
     achieved through joint initiatives and training, in furtherance of the DHS’
     mission “to lead the unified effort to secure America.”

     For example, the addendum to the CBP Office of Border Patrol and ICE
     Office of Investigations MOU promotes occupational awareness and
     orientation among field elements of ICE and CBP personnel. These efforts
     include providing orientation to each other’s personnel on operational
     priorities, programmatic areas of concern, evidence handling, and other
     related matters. This initial orientation will be tailored to meet the identified
     needs of ICE and CBP personnel. Joint trade enforcement training has
     already taken place. In FY 2006, ICE conducted two Advanced Fraud
     Investigations courses at the Federal Law Enforcement Training Center for 36
     ICE and 24 CBP personnel. The joint classes allow field personnel to interact
     and better understand the work, authorities, and responsibilities of their
     counterparts. ICE and CBP also conducted joint training for 20 ICE and 9
     CBP personnel assigned to Textile Production Verification Teams. Textile
     Production Verification Teams are tasked with visits to foreign textile


DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                Page 21 

     production facilities to verify their capability and capacity to produce textiles
     reported as imported into the United States. These teams also identify
     instances of transshipment or false country-of-origin claims.

     Horizontal and vertical communications are critical to the successful
     implementation of policies, procedures, and practices, as well as to ensure
     dissemination of new developments and goals. Issues resolved at the
     headquarters level are communicated to the field in a number of ways
     depending on the nature and scope of the issues. Complex issues involving
     modifications of policies and procedures often require the issuance of new or
     revised policies or standard operating procedures. Resolutions that provide
     clarification of roles and responsibilities are typically communicated through
     memoranda.

     For example, ICE and CBP jointly issued a memorandum on
     November 20, 2006, entitled, “Re-Energizing the CBP and ICE Trade Fraud
     Program,” emphasizing the commitment of both agencies to energize trade
     fraud enforcement efforts. This memorandum was issued to all CBP and ICE
     field offices. To demonstrate the benefits of collaborative efforts and timely
     communication, the memorandum cited examples of trade enforcement
     successes achieved through effective communication between CBP and ICE,
     while also discussing the joint CBP and ICE Commercial Enforcement
     Analysis and Response process. The Commercial Enforcement Analysis and
     Response process was created to establish uniform standards to respond to
     commercial violations in all service ports. CBP and ICE have convened
     varied working groups to discuss joint investigative projects.

     Specifically, at CBP, depending on the significance and applicability to
     operations, resolutions are presented and discussed during musters. Border
     Patrol is currently developing a quarterly newsletter that will be distributed to
     all sectors and stations. These methods of communication will be another
     viable vehicle for dissemination of headquarters resolutions to the field. At
     ICE, communications to field units are accomplished in a variety of other
     methods, including ICE Broadcast messages from the Assistant Secretary or
     the Deputy Assistant Secretary, bi-monthly Special Agent in Charge
     conference calls, and weekly Ombudsman email summaries, while
     memoranda and procedures are posted and accessible on the ICE Office of
     Investigations proprietary website.

     Accordingly, CBP and ICE request that this recommendation be deemed
     resolved and closed.

     OIG Analysis of CBP and ICE Update: We concur with CBP and ICE
     efforts to improve communication and cross-component understanding


DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                Page 22 

     regarding respective roles and responsibilities. This recommendation is
     resolved and closed. No further reporting is necessary.

     Recommendation 4: Monitor CBP and ICE field performance to ensure
     adherence to DHS’ vision and guidance, and accountability to related goals.
     To support this accountability, DHS leadership should develop performance
     measures and a reporting mechanism that convey an accurate picture of
     current operations to senior managers. In addition to performance metrics to
     measure internal CBP and ICE operations, a set of joint performance metrics
     should be developed to gauge the extent of interaction and coordination
     between CBP and ICE, as well as the level of support each organization
     extends the other. Resulting metrics should assist the organizations in arriving
     at shared expectations about their respective obligations and level of support.

     CBP and ICE Update: ICE and CBP concur with our analysis. DHS is
     developing a more disciplined and analytical methodology for measuring
     border security. Once completed, DHS will have a systematic performance
     reporting framework that will measure its efforts between the ports of entry, at
     the ports of entry, with investigations, and other operations aimed at the
     continuum of border security.

     In FY 2007, as DHS is implementing its border security initiatives, it will
     develop and refine detailed performance measures for a full range of
     performance goals, including valid and reliable data collection procedures and
     baselines. Meanwhile, the data provided in the Bi-Monthly Status Report on
     the Department of Homeland Security’s Border Security Performance and
     Resources provides key performance indicators for the Secure Border
     Initiative.

     OIG Analysis of CBP and ICE Update: We agree with the actions DHS is
     taking to develop an appropriate methodology for measuring border security.
     A systematic performance measurement framework will allow DHS to
     measure and analyze CBP and ICE performance and border security
     operations, as well as identifying trends. Although the proposed methodology
     has not been fully developed and implemented, DHS’ planned actions are
     responsive to the intent of our recommendation. In support of its actions,
     DHS has implemented a Secure Border Strategic Plan and is nearing
     completion on a CBP SBInet Strategic Plan. This recommendation is
     resolved, but remains open pending our receipt of additional information on
     DHS’ progress to develop a more disciplined and analytical methodology for
     measuring border security.

     Recommendation 12: Develop dispute arbitration and resolution
     mechanisms at the field level. These mechanisms should be available for


DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                Page 23 

     airing both routine and extraordinary interagency operational concerns and
     recommending remedial actions, and they should be designed to minimize the
     risk of retaliation against employees who raise concerns. When the resulting
     field-level arbitration mechanisms result in the resolution of a dispute,
     headquarters should be notified of the issue and resolution.

     CBP and ICE Update: CBP and ICE concur with our initial
     recommendation. However, ICE and CBP do not concur with our subsequent
     analysis. As stated in the analysis, field level disputes are usually resolved in
     a timely manner and therefore, ICE and CBP believe an anonymous reporting
     procedure, both for airing and resolving interagency operational concerns, is
     unnecessary. In the vast majority of cases ICE and CBP operational field
     managers resolve issues and disputes at the field level. In those instances in
     which issues or disputes cannot be resolved at the field level, there are
     successful developed mechanisms for elevated review by ICE and CBP
     headquarters managers. Finally, ICE and CBP can use the resources of the
     ICE/CBP Coordination Council to address potential conflicts that cannot be
     resolved at the field or headquarters level.

     As CBP and ICE have existing management structures that are responsible
     and accountable for identifying and resolving such concerns, the creation of a
     formal arbitration and resolution mechanism merely serves to transfer
     accountability from identified individuals in the components’ respective
     management chains to a non-descript process. The draft report fails to cite a
     single instance in which CBP or ICE took retaliatory or adverse action against
     an employee for raising an operational concern or conflict. CBP and ICE are
     unaware of any such instances.

     Moreover, the creation of such a process, fueled by anonymous “complaints”
     regarding both routine and extraordinary interagency operational concerns,
     could have the opposite effect of the one intended, i.e., it could actually
     decrease candor both between CBP and ICE and between the components’
     management and non-management workforces. For example, rather than
     encouraging CBP officers to “tell it like it is” to their supervisors, such
     officers could view their duty to bring concerns to their management chain as
     being accomplished simply by making an anonymous phone call to a
     “hotline,” with the added result of increasing the time between problem
     identification and resolution. Further, ICE and CBP employees may report
     issues outside of their chains-of-command to the DHS OIG Hotline or the
     Joint Intake Center if they fear retaliation. Also, ICE maintains an email
     “Suggestion Box” that allows employees and members of the public to submit
     suggestions, complaints, or concerns directly to ICE headquarters. In
     addition, CBP maintains an email and telephone “Contact Center,” which
     handles complaints, inquiries and comments from both the general public and


DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                Page 24 

     CBP employees. Because these protective mechanisms are available for
     employees to report and resolve issues, an additional process is not needed.

     Accordingly, CBP and ICE recommend that this recommendation be deemed
     resolved and closed.

     OIG Analysis of CBP and ICE Update: DHS has demonstrated that field
     level disputes are usually resolved in a timely manner at the field line or
     supervisory level. In those instances where a dispute cannot be resolved at the
     field level, ICE and CBP headquarters managers have developed mechanisms
     for elevated review. The ICE-CBP Coordination Council also addresses
     potential conflicts that cannot be resolved at the field or headquarters level.

     On at least three occasions during our site visits, ICE and CBP personnel
     expressed fear of retaliation for raising operational concerns or conflicts up
     their chains of command. CBP and ICE note several additional methods
     through which CBP and ICE personnel can report concerns. We are satisfied
     with the variety of reporting methods available. This recommendation is
     resolved and closed. No further reporting is necessary.

     Recommendation 13: Develop an operating environment that facilitates
     collaborative intelligence activities. Such an environment should promote
     ICE-CBP staff co-location when possible and where appropriate. In addition,
     CBP and ICE should pursue the development of joint intelligence products to
     reflect a more comprehensive picture of border security. Finally, CBP and
     ICE should jointly employ new technology systems for the exchange and
     analysis of intelligence information that facilitate these activities.

     CBP and ICE Update: CBP and ICE concur and believe that this
     recommendation has been resolved. Both components share information
     through the Treasury Enforcement Communications System, which allows
     both agencies to view intelligence reports, releasable investigative
     information, and subject records. CBP and ICE also use an Intel Fusion
     website to share information in the following categories: terrorist-threat,
     officer-safety, be-on-lookout, intelligence reporting system, immigration-
     lookout, and gang-lookout. ICE/Intel and CBP further share intelligence
     through the ICE Southwest Field Intelligence Unit and the Albuquerque
     Special Operations Center. ICE and CBP are currently discussing the shared
     use of the ICE Pattern Analysis Information Collection Tool, which will allow
     both agencies to perform entity resolution analysis on disparate data.

     Other intelligence dissemination measures and initiatives are underway. The
     DHS Intelligence Systems Board aims to unify the intelligence program
     throughout DHS through an enterprise approach to information sharing and


DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                Page 25 

     the application of common systems. The DHS Science & Technology
     directorate is working to develop a single web-based application that would be
     used by DHS components to share intelligence information, such as Field
     Intelligence Reports, associated with criminal activity and activity with a
     possible nexus to terrorism. The web-based application, when ultimately
     implemented, will be readily compatible and conducive to information sharing
     with other federal agencies and state fusion centers.

     Accordingly, CBP and ICE request that this recommendation be deemed
     resolved and closed.

     OIG Analysis of CBP and ICE Update: The addendum to the MOU
     between CBP’s Office of Border Patrol and ICE’s Office of Investigations
     outlines the progress being made toward developing a seamless, real-time
     operational partnership. New avenues of communication have effectively
     facilitated operational awareness and mission success. Additionally, systems
     such as the Treasury Enforcement Communications System and
     ENFORCE/IDENT have helped coordinate law enforcement actions between
     CBP’s Office of Border Patrol and ICE’s Office of Investigations. Joint
     enforcement operations have bolstered the working relationship between the
     two components and have allowed each to bring its respective skills and
     abilities to bear on enforcement issues.

     Co-location between intelligence personnel has increased. The MOU
     addendum has laid the foundation for continued collaboration. CBP and ICE
     need to continue to pursue filling vacancies within joint units, such as JTTFs,
     Border Enforcement Security Task Forces, Integrated Border Intelligence
     Teams, and the National Targeting Center. This recommendation is resolved,
     but remains open pending our receipt of additional information regarding the
     progress CBP and ICE have made to promote staff co-location and the
     development of joint intelligence products.

     Recommendation 14: Address the prevalent and growing contentiousness
     between CBP and ICE. Competition is natural between two groups, but ICE
     and CBP leadership should develop programs and policies to encourage
     mutual respect. Field level activities must be monitored more closely to
     ensure that border security is not compromised by organizational antagonisms
     mentality. Likewise, DHS leadership should take action to develop a
     corporate culture in which all CBP and ICE employees believe that they have
     a vested stake in each other’s mission and in the overall DHS mission.

     CBP and ICE Update: CBP and ICE believe that the measures described
     throughout this memorandum support the conclusion that this
     recommendation has been satisfactorily resolved.


DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                Page 26 

     Through personnel exchanges and extensive joint planning, CBP and ICE are
     thoroughly coordinating on a full range of operational and information sharing
     activities. The DHS reorganization following Secretary Chertoff’s Second
     Stage Review provided DHS leadership with direct component oversight to
     further ensure the two agencies focus effectively on their respective core
     missions, interdiction and investigation, while mutually supporting each other
     where missions overlap. By implementing numerous institutionalized
     arrangements for cooperation and joint planning, with a transparent
     atmosphere that allows senior DHS leadership to resolve any issues, the
     current organizational arrangements are optimized to ensure that ICE and CBP
     are making the maximum contribution to the nation’s security.

     Cross training, as previously described, has yielded positive results. For
     example, a recent intellectual property rights undercover investigation
     identified individuals and methods of smuggling counterfeit footwear into the
     United States. Using investigative information supplied by ICE, CBP
     identified a large number of other containers of counterfeit footwear that had
     already arrived in the United States or were arriving imminently. As a result,
     ICE and CBP seized 77 containers of these counterfeit goods with a total
     value of over $65 million. This was one of the largest seizures of counterfeit
     goods in U.S. history. In addition, after the Textile Production Verification
     Teams training, ICE and CBP jointly visited 13 countries in 2006. The
     Textile Production Verification Teams found a non-compliance rate of over
     50% and discerned other information that will help inform future
     investigations and seizures.

     Furthermore, as stated in the recently approved addendum to the CBP Office
     of Border Patrol and ICE Office of Investigations MOU, ICE and CBP agreed
     to co-locate intelligence personnel in eleven specified sites throughout the
     United States if resources permit. If resources allow, additional co-locations
     may occur. Upon the co-location of intelligence personnel, CBP and ICE will
     immediately direct the development of a joint intelligence reporting process
     specific to the needs and requirements of each area of responsibility. The co
     location of select Border Patrol and ICE Office of Investigations intelligence
     personnel will improve the ability of both components to actively and
     consistently share information and intelligence relating to each other's shared
     missions.

     Since the first report was issued in November 2005, cooperation between the
     two agencies has vastly improved, due in large measure to greater
     communication and joint training efforts. As these cooperative partnerships
     yield further successes, any remaining perceived contentiousness should cease
     to exist.


DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                Page 27 

     Accordingly, CBP and ICE request that this recommendation be deemed
     resolved and closed.

     OIG Analysis of CBP and ICE Update: We agree with the actions CBP and
     ICE have taken to address issues of mistrust and contentiousness between the
     organizations. CBP and ICE efforts to increase and continue co-location,
     awareness of each other’s missions and activities, and cross-training are
     improving relations between CBP and ICE personnel. Continued efforts in
     those areas should promote continued improvement in the relationship
     between the organizations. This recommendation is resolved and closed. No
     further reporting is necessary.




DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                Page 28 

     Appendix A
     OIG Analysis of DHS Response to An Assessment
     of the Proposal to Merge CBP with ICE, OIG-06-04


     In November 2005, we issued our initial report, An Assessment of the
     Proposal to Merge Customs and Border Protection with Immigration and
     Customs Enforcement, OIG-06-04. In April 2006, we received DHS’
     response outlining the activities and programs it intends to implement to
     address the 14 recommendations we made to improve coordination between
     CBP and ICE and enhance interoperability at the field level. We consider
     eight recommendations resolved and closed; however, six recommendations
     remain resolved and open.

     Following is our analysis of DHS’ response to our initial report.

     Recommendation 1: Establish that the Under Secretary for Policy and the
     Director of Operations Coordination have authority over CBP and ICE with
     respect to policy and operational coordination. These offices’ purview must
     be re-enforced by the Secretary and Deputy Secretary’s actions. Accordingly,
     it will be essential for the Secretary and Deputy Secretary to channel related
     discussions and decisions with CBP and ICE through these offices.

     DHS Response: DHS concurs in part with the recommendation. In
     November 2005, following the Second Stage Review, DHS’ Secretary
     implemented several organizational changes. CBP and ICE became direct
     reports to the Secretary, and the Border and Transportation Security
     Directorate was eliminated in an effort to streamline management and increase
     accountability. In addition, the department-wide Office of Policy, Office of
     Operations Coordination, and Office of Intelligence and Analysis were created
     and charged with using the tools of all DHS components to address the
     department’s homeland security mission. While these offices do not have
     direct authority over CBP and ICE, officials within each office regularly
     interact with their CBP and ICE counterparts, such as in consultations to
     develop legislative and regulatory immigration and border security proposals,
     and at weekly SBI meetings involving the Secretary, the Assistant Secretary
     for Policy, the heads of ICE, CBP, and U.S. Citizenship and Immigration
     Services, the Director of Operations Coordination, and others.

     Also, CBP and ICE, under the Secretary’s direction, created the ICE-CBP
     Coordination Council to consider, coordinate, and resolve operational and
     policy issues between the organizations. The Council reports to the Secretary
     on outstanding issues, resolutions, and disagreements requiring further
     direction or deconfliction. The Council also interacts closely with the
     Assistant Secretary for Policy and the Director of Operations Coordination.

     OIG Analysis: We concur with the actions taken by DHS to facilitate and
     ensure coordination between CBP and ICE, as well as with other DHS
     components, on border security and immigration-related policy and
     operational issues. Although the recommendation was not adopted as

DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                Page 29 

     Appendix A
     OIG Analysis of DHS Response to An Assessment
     of the Proposal to Merge CBP with ICE, OIG-06-04


     proposed, the department did recognize the need for proactive and systematic
     methods to monitor and ensure CBP and ICE work together to accomplish the
     Secretary’s goals. The realignment of CBP and ICE as direct reports to the
     Secretary ought to strengthen institutional and personal accountability at all
     levels. This recommendation is resolved and closed. No further reporting is
     necessary.

     Recommendation 2: Develop a vision of how ICE and CBP are to work
     together and contribute to the overall DHS mission. Consistent with this
     vision, the Operations Coordination Office and Under Secretary for Policy
     should work with CBP and ICE to define and set their respective roles and
     responsibilities. At minimum, clarification needs to be provided in the
     following areas:

         • 	 ICE’s role at ports of entry and the establishment of its jurisdictional
             authorities in consideration of CBP authorities.
         • 	 CBP’s role in referring case leads to ICE; ICE’s role in responding to
             case referrals from CBP.
         • 	 ICE’s Detention and Removal Operations transportation and CBP
             support roles.

     DHS Response: DHS concurs in part with the recommendation. The
     department has taken actions to enhance coordination and achieve measurable
     border security and interior enforcement-related results. The Secretary
     established SBI to improve department-wide coordination in the apprehension
     and detention and referral areas. Also, DHS established Border Enforcement
     Security Task Forces to combat cross-border violence along the southwest
     U.S. border. In addition, the ICE-CBP Coordination Council was established
     to provide a forum for CBP and ICE to proactively coordinate and address
     operational and policy issues related to border security and interior
     enforcement.

     OIG Analysis: We concur with the actions DHS, CBP, and ICE have taken
     to define and clarify their respective authorities, roles, and responsibilities.
     CBP and ICE joint memoranda provided additional guidance regarding
     authorities, policies, and procedures. An addendum to the CBP Border Patrol
     – ICE Investigations MOU has been drafted to further clarify roles and
     responsibilities between the two organizations; the addendum is in the
     approval process with senior CBP and ICE officials. In addition, CBP
     transportation contracts are pending. When Detention and Removal
     Operations personnel are not able to provide transportation, these contracts
     will allow CBP Officers and Border Patrol Agents to remain at ports of entry
     or on the border rather than transporting detained illegal aliens to detention
     facilities. Upon completion and review of documentation for both of these


DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                Page 30 

     Appendix A
     OIG Analysis of DHS Response to An Assessment
     of the Proposal to Merge CBP with ICE, OIG-06-04


     actions, we will consider closing the recommendation. This recommendation
     is resolved, but remains open.

     Recommendation 3: Communicate roles and responsibilities to all levels of
     CBP and ICE so that they are understood throughout the organizations. It is
     paramount that CBP and ICE employees understand their individual and
     institutional roles and responsibilities and the relationship of these to the roles
     and responsibilities of those of the other agency.

     DHS Response: DHS concurs with the recommendation. At the
     headquarters level, issues between CBP and ICE are addressed through the
     ICE-CBP Coordination Council. The Council has issued joint memoranda to
     communicate CBP and ICE roles and responsibilities to field personnel.
     Communication at the field level is a priority and occurs through regular
     contact between the principal field officers, supervisory personnel, and line
     personnel of CBP and ICE.

     OIG Analysis: We concur with CBP and ICE actions to address and
     communicate roles and responsibilities at the headquarters and field levels.
     However, our fieldwork demonstrates that resolutions at the headquarters
     level are not reaching all field personnel. A better procedure is needed to
     ensure resolutions are communicated and reinforced in a manner that reaches
     all field personnel.

     In addition, for many locations, CBP and ICE field personnel do not have a
     clear understanding of roles and responsibilities. In some locations,
     supervisory and line personnel said more knowledge of CBP and ICE roles
     and responsibilities would enhance their understanding of support
     requirements and improve job performance. For example, if CBP understood
     ICE responsibilities regarding evidence handling better, errors involving
     evidence handling during seizures could decline, and could assist ICE in
     presenting stronger, and potentially more cases for prosecution. A training
     course on basic CBP and ICE roles and responsibilities would improve the
     knowledge of both and facilitate operations and interactions between the
     organizations. This recommendation is resolved, but remains open.

     Recommendation 4: Monitor CBP and ICE field performance to ensure
     adherence to DHS’ vision and guidance, and accountability to related goals.
     To support this accountability, DHS leadership should develop performance
     measures and a reporting mechanism that convey an accurate picture of
     current operations to senior managers. In addition to performance metrics to
     measure internal CBP and ICE operations, a set of joint performance metrics
     should be developed to gauge the extent of interaction and coordination
     between CBP and ICE, as well as the level of support each organization


DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                Page 31 

     Appendix A
     OIG Analysis of DHS Response to An Assessment
     of the Proposal to Merge CBP with ICE, OIG-06-04


     extends the other. Resulting metrics should assist the organizations in arriving
     at shared expectations about their respective obligations and level of support.

     DHS Response: DHS concurs with the recommendation. One of the
     Secretary’s top priorities for SBI was establishing metrics to monitor program
     progress and to provide information and a clear overall picture to decision
     makers. ICE’s Detention and Removal Operations and CBP’s Border Patrol
     are developing an automated data sharing architecture for SBI related issues,
     which is improving existing processes and resulting in faster processing of
     illegal aliens. Further, ICE has detained more aliens in support of the
     Secretary’s goal of ending catch and release along the southwest border.

     A Technology Solutions Work Group, consisting of CBP Border Patrol, ICE
     Investigations, and ICE Detention and Removal Operations representatives,
     has made progress in establishing metrics related to SBI goals. The working
     group is to assess the reporting capabilities of existing ICE information
     systems, develop methods for improving the quality of information supporting
     SBI performance metrics and the reporting process, and create a baseline for
     the implementation of a permanent information technology solution. The
     solution is to bridge information contained in the various systems used by
     CBP Border Patrol, ICE Investigations, and ICE Detention and Removal
     Operations.

     In addition, the Secretary hired a new Special Assistant, who will oversee
     DHS-wide performance metrics implementation, monitoring, and reporting.
     The Special Assistant will coordinate and implement new metrics to monitor
     performance against the Secretary’s goals.

     OIG Analysis: DHS has taken appropriate action to align CBP and ICE
     performance with department goals. DHS has required CBP and ICE to
     provide data on SBI-related program successes. However, the data is solely
     quantitative in nature and does not include any qualitative measures. DHS is
     in the process of implementing SBInet and establishing specific SBI-related
     metrics. This recommendation is resolved, but remains open.

     Recommendation 5: Develop a formal mechanism to assure that the Under
     Secretary for Management and the Chief Financial Officer collaborate with
     ICE and CBP management to develop a process for CBP and ICE to increase
     participation in one another’s budget formulation and strategic planning
     processes. This budgeting and planning interaction should include avenues
     for CBP and ICE to comment on and influence one another’s budgets and
     strategic plans. These efforts should be pursued with the aim of achieving an
     effective balance of resources and ensuring adequate support for major
     operational initiatives across institutional boundaries. In addition, the Chief


DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                Page 32 

     Appendix A
     OIG Analysis of DHS Response to An Assessment
     of the Proposal to Merge CBP with ICE, OIG-06-04


     Financial Officer should track budget execution to guarantee compliance with
     agreed-to budget and plans.

     DHS Response: DHS concurs with the intent of the recommendation.
     Through the Investment Review Board and the Joint Requirements Council,
     DHS guides CBP and ICE budgeting and strategic planning to ensure
     activities are aligned with DHS’ overall strategy. In addition, the SBI
     Program Executive Office is responsible for coordinating border resources
     between DHS components, particularly CBP and ICE, including the formation
     of budget requests and the operational implementation of appropriated
     resources. DHS’ Chief Financial Officer meets regularly with both CBP and
     ICE on planning and budget execution, and both components meet with the
     Chief Financial Officer for mid-year financial reviews.

     OIG Analysis: We concur with the actions taken. Through the Investment
     Review Board, Joint Requirements Council, SBI Program Executive Office,
     and DHS’ Chief Financial Officer, the department has addressed our
     recommendation to facilitate and encourage CBP and ICE collaboration in
     budgeting and strategic planning. This recommendation is resolved and
     closed. No further reporting is necessary.

     Recommendation 6: Direct the Operations Coordination Office to undertake
     an interagency procedural review process to ensure that ICE and CBP
     procedures support agreed upon roles and responsibilities and are compatible
     with one another at touch points. Where necessary procedures do not exist,
     the Operations Coordination Office should direct development of needed
     procedures, and notification and information exchange protocols.

     DHS Response: DHS concurs with the intent of the recommendation. The
     ICE-CBP Coordination Council was formed to address compatibility of roles
     and responsibilities. It provides national-level review for issues involving
     both CBP and ICE that are raised internally or from the field level, such as
     clarifying existing policies for how CBP refers cases to ICE for investigation.

     OIG Analysis: We concur with the action taken by DHS. The department
     did not adopt the recommendation as proposed, but did agree with the need for
     a procedure to provide guidance and clarification to CBP and ICE on their
     roles and responsibilities. The ICE-CBP Coordination Council has effectively
     addressed a number of interagency issues, clarified existing policies and
     procedures, and provided a forum for the components to address issues of
     mutual concern. This recommendation is resolved and closed. No further
     reporting necessary.

     Recommendation 7: Ensure that the Operations Coordination Office closely
     monitors the development of redundant capabilities within CBP and ICE as

DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                Page 33 

     Appendix A
     OIG Analysis of DHS Response to An Assessment
     of the Proposal to Merge CBP with ICE, OIG-06-04


     indications that resource sharing arrangements are not proceeding smoothly.
     Attention should be given to:

         • 	 CBP’s plans to expand the number of enforcement officers and enlarge
             their jurisdiction.
         • 	 CBP’s use of Border Patrol agents in an investigative capacity.
         • 	 CBP’s fraudulent document analysis capability.
         • 	 CBP’s expanding intelligence apparatus.

     DHS Response: DHS concurs with the intent of the recommendation. DHS
     has commissioned oversight groups such as the Joint Requirements Council,
     the Investment Review Board, Chief Information Officer’s Council, and the
     ICE-CBP Coordination Council to ensure component capabilities are within
     their scope of authorities and responsibilities. DHS reports that similar
     capabilities resident in the separate organizations are not necessarily
     redundant, and therefore, are not inefficient or ineffective. DHS will continue
     to sustain mutually reinforcing capabilities of CBP, ICE, and other component
     agencies, and will work to ensure that capabilities are complementary,
     aligned, and consistent with organizational mission accomplishment.

     To facilitate intelligence sharing, CBP and ICE coordinate with DHS’ Office
     of Intelligence and Analysis, and ICE has assigned an ICE liaison to CBP’s
     National Targeting Center to ensure effective communication and information
     sharing between CBP and ICE. In addition, the ICE-CBP Coordination
     Council is reviewing national policy and will issue guidance reaffirming the
     roles and responsibilities of CBP Border Patrol and ICE Investigations. CBP
     Border Patrol Chief Patrol Agents and ICE Special Agents in Charge have
     been empowered to implement local notification thresholds and protocols to
     address their individual operational environments and requirements.

     OIG Analysis: We consider the actions taken by DHS to be responsive to the
     intent of the recommendation. The department has implemented several
     methods to ensure effective coordination of resources across DHS
     components, including between CBP and ICE, and especially where the
     potential for redundant capabilities might exist. Through the establishment of
     the ICE-CBP Coordination Council, assignment of liaisons, and co-location of
     CBP and ICE personnel, DHS has increased and improved information and
     intelligence sharing between the two components. This recommendation is
     resolved and closed. No further reporting is necessary.

     Recommendation 8: Require that the Policy Office engage in coordination
     with CBP and ICE to align priorities with an interagency bearing (e.g.,
     detention bed space, investigative case selection) through a consultative
     process. Pursuant to this process, the Policy Office should monitor


DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                Page 34 

     Appendix A
     OIG Analysis of DHS Response to An Assessment
     of the Proposal to Merge CBP with ICE, OIG-06-04


     implementation of these priorities through performance tracking and periodic
     interagency reviews including assessments of related resource deployments.

     DHS Response: DHS concurs in part with the recommendation. CBP and
     ICE work together to align interagency priorities through the ICE-CBP
     Coordination Council. The SBI Program Executive Office facilitates CBP
     and ICE coordination to ensure a systems management approach to border
     security and interior enforcement initiatives, integrates CBP and ICE
     capabilities, and promotes effective resource utilization and prioritization.

     OIG Analysis: We concur with the actions taken by DHS. CBP and ICE
     senior officials actively participate in ICE-CBP Coordination Council
     meetings. In addition, the SBI Program Executive Office, within DHS’ Office
     of Policy, and weekly SBI meetings with the Secretary and other DHS senior
     officials facilitate collaboration between CBP and ICE. This recommendation
     is resolved and closed. No further reporting is necessary.

     Recommendation 9: Establish a forum for coordinating among staff from
     the Secretary and Deputy Secretary’s Office, Under Secretary for
     Management, Chief Financial Officer, Under Secretary for Policy, Director of
     Operations Coordination, CBP Commissioner, and ICE Assistant Secretary to
     discuss issues related to the CBP-ICE relationship.

     DHS Response: DHS concurs with the recommendation. DHS established a
     forum for senior-level discussion on the CBP-ICE relationship by holding
     weekly meetings with the Secretary and agency heads and by developing the
     ICE-CBP Coordination Council.

     OIG Analysis: We concur with the actions taken by DHS. The Secretary’s
     weekly meetings and the ICE-CBP Coordination Council have been effective
     in addressing issues and resolving disputes between CBP and ICE at the
     headquarters level, and have clarified policies and procedures for operational
     coordination. In addition, the Investment Review Process provides a
     mechanism for coordination with the Under Secretary for Management and
     the Chief Financial Officer. This recommendation is resolved and closed. No
     further reporting is necessary.

     Recommendation 10: Create joint CBP-ICE bodies to oversee the
     implementation of interagency coordination efforts and MOUs. These bodies
     could respond to requests to deviate from plans, make adjustments, provide
     clarification, and resolve different interpretations of related guidance.

     DHS Response: DHS concurs with the recommendation. Efforts to improve
     coordination and intelligence and information sharing between CBP and ICE
     have led to the establishment of several interagency working groups, such as

DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                Page 35 

     Appendix A
     OIG Analysis of DHS Response to An Assessment
     of the Proposal to Merge CBP with ICE, OIG-06-04


     the CBP Field Operations/ICE Investigations Working Group, which
     addressed several priority issues between the two organizations. In addition,
     the SBI Program Executive Office and the ICE-CBP Coordination Council
     were created to coordinate interagency efforts and MOUs. Also, DHS is
     establishing Border Enforcement Security Task Forces to focus on cross-
     border crimes, working in conjunction with existing task forces to enhance
     intelligence and information sharing.

     OIG Analysis: We concur with the actions taken by DHS. This
     recommendation is resolved and closed. No further reporting is necessary.

     Recommendation 11: Develop a headquarters-level joint CBP-ICE standing
     committee to manage the relationship between the two. This committee could
     address a revolving agenda on CBP-ICE touch points and develop interagency
     policies and procedures to guide CBP and ICE operations. The committee
     should document and distribute information on dispute scenarios and
     resolutions to help foster greater uniformity in interpreting policies and
     procedures and resolving related disputes. To resolve disputes at both the
     headquarters and field levels, CBP and ICE should create a strictly proscribed
     time standard for disposition, as the dynamic nature of the enforcement
     environment requires swift decisions to accomplish the mission.

     DHS Response: DHS concurs with the recommendation. The ICE-CBP
     Coordination Council has been established to manage the relationship
     between CBP and ICE and proactively facilitate their coordination efforts.
     The ICE-CBP Coordination Council has addressed issues such as CBP Border
     Patrol and ICE Investigations referral policy, CBP Air deployment plans,
     single journey boarding letters, ICE Detention and Removal Operations
     detailees, and intelligence and information sharing.

     OIG Analysis: The ICE-CBP Coordination Council is an effective forum for
     coordinating among CBP and ICE senior officials and addressing interagency
     policies and procedures. Joint memoranda and MOUs have been distributed
     to provide clarification and guidance on interagency policies and procedures.
     Neither CBP nor ICE has established a time standard for resolving disputes in
     the operational law enforcement environment; however, our fieldwork
     demonstrates that most disputes in the operational environment at both the
     headquarters and field levels are resolved quickly using the respective chains
     of command. This recommendation is resolved and closed. No further
     reporting is necessary.

     Recommendation 12: Develop dispute arbitration and resolution
     mechanisms at the field level. These mechanisms should be available for
     airing both routine and extraordinary interagency operational concerns and
     recommending remedial actions, and they should be designed to minimize the

DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                Page 36 

     Appendix A
     OIG Analysis of DHS Response to An Assessment
     of the Proposal to Merge CBP with ICE, OIG-06-04


     risk of retaliation against employees who raise concerns. When the resulting
     field-level arbitration mechanisms result in the resolution of a dispute,
     headquarters should be notified of the issue and resolution.

     DHS Response: DHS concurs with the recommendation. On
     December 8, 2005, a joint memorandum directed CBP Field Operations and
     ICE Investigations field offices to develop local communication mechanisms
     to ensure that enforcement actions are routinely and effectively shared
     between CBP and ICE. Both agencies are confident in the ability of their
     operational commanders in the field to resolve issues and disputes. Issues not
     resolved will be elevated to the headquarters level and will be addressed by
     the ICE-CBP Coordination Council.

     OIG Analysis: While DHS has not developed a formal dispute resolution
     process at the field level, field level disputes usually are resolved in a timely
     manner at the field line or supervisory level. Disputes are raised through the
     respective CBP and ICE chains of command, as necessary, to the CBP and
     ICE field operational commanders until resolved. However, a procedure to
     allow personnel to raise concerns anonymously has not been established.
     Employees who raise concerns do so on a face-to-face level with their
     counterparts at CBP or ICE or within their own chain of command. CBP and
     ICE should jointly pursue a method to address this concern. This
     recommendation is resolved, but remains open.

     Recommendation 13: Develop an operating environment that facilitates
     collaborative intelligence activities. Such an environment should promote
     ICE-CBP staff co-location when possible and where appropriate. In addition,
     CBP and ICE should pursue the development of joint intelligence products to
     reflect a more comprehensive picture of border security. Finally, CBP and
     ICE should jointly employ new technology systems for the exchange and
     analysis of intelligence information that facilitate these activities.

     DHS Response: DHS concurs with the recommendation. The ICE-CBP
     Coordination Council is addressing coordination of intelligence and
     information sharing opportunities, and has established a working group to
     propose solutions. The department reports that improved coordination
     mechanisms are already in place, such as co-locating an ICE representative at
     the National Targeting Center. In addition, pending a departmental national
     intelligence sharing directive and other DHS-wide intelligence initiatives,
     CBP and ICE components will continue to develop jointly processes and
     procedures to improve information sharing and intelligence activities.

     OIG Analysis: DHS has made progress in improving intelligence and
     information sharing between CBP and ICE. Co-locating CBP and ICE
     personnel, such as with JTTFs, Border Enforcement Security Task Forces,

DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                Page 37 

     Appendix A
     OIG Analysis of DHS Response to An Assessment
     of the Proposal to Merge CBP with ICE, OIG-06-04


     Integrated Border Intelligence Teams, and the National Targeting Center, has
     facilitated and improved information sharing between the two organizations.
     In addition, a CBP-ICE working group is developing, formalizing, and
     documenting initiatives and procedures to promote efficient and timely
     intelligence sharing between CBP and ICE. The working group reported to
     the ICE-CBP Coordination Council in March 2006, and continues to address
     these issues. A departmental national intelligence sharing directive is
     pending. This recommendation is resolved, but remains open.

     Recommendation 14: Address the prevalent and growing contentiousness
     between CBP and ICE. Competition is natural between two groups, but ICE
     and CBP leadership should develop programs and policies to encourage
     mutual respect. Field level activities must be monitored more closely to
     ensure that border security is not compromised by organizational antagonisms
     mentality. Likewise, DHS leadership should take action to develop a
     corporate culture in which all CBP and ICE employees believe that they have
     a vested stake in each other’s mission and in the overall DHS mission.

     DHS Response: DHS concurs with the recommendation. The Secretary’s
     vision is to develop a single DHS culture combining the individual cultures of
     its component agencies while embracing a single team oriented focus on the
     department’s mission. DHS has established the Organizational
     Transformation Team to address management and human resource issues
     affecting CBP and ICE, as well as other issues.

     OIG Analysis: The ICE-CBP Coordination Council has addressed some
     issues of contentiousness between CBP and ICE personnel; however, poor
     relationships continue in some field locations. Co-location and joint training
     appear to improve relations and increase understanding between CBP and ICE
     personnel in locations where they are used. However, many field personnel
     are unaware of headquarters’ efforts to resolve issues between CBP and ICE.
     Increased transparency between headquarters and all field levels, joint
     training, cross-training, continued co-location, and additional efforts are
     needed to address the resistance, mistrust, and contentiousness between some
     CBP and ICE personnel. This recommendation is resolved, but remains open.




DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                Page 38 

                           Appendix B
                           Continuing Recommendations




    Continuing Recommendations

                                                        Former
                       Recommendation                   Number    Status            Actions/Plans To Be Addressed
Recommendation 1:                                          4     Resolved   Additional information on DHS’ progress
Monitor CBP and ICE field performance to ensure                  Open       to develop a more disciplined and
adherence to DHS’ vision and guidance, and                                  analytical methodology for measuring
accountability to related goals. To support this                            border security.
accountability, DHS leadership should develop
performance measures and a reporting mechanism
that convey an accurate picture of current operations
to senior managers. In addition to performance
metrics to measure internal CBP and ICE
operations, a set of joint performance metrics should
be developed to gauge the extent of interaction and
coordination between CBP and ICE, as well as the
level of support each organization extends the other.
Resulting metrics should assist the organizations in
arriving at shared expectations about their
respective obligations and level of support.
Recommendation 2: Develop an operating                    13     Resolved   Additional information regarding the
environment that facilitates collaborative                       Open       progress CBP and ICE have made to
intelligence activities. Such an environment should                         promote staff co-location and the
promote ICE-CBP staff co-location when possible                             development of joint intelligence
and where appropriate. In addition, CBP and ICE                             products.
should pursue the development of joint intelligence
products to reflect a more comprehensive picture of
border security. Finally, CBP and ICE should
jointly employ new technology systems for the
exchange and analysis of intelligence information
that facilitate these activities.




                     DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                                     Page 39 

            Appendix C
            Purpose, Scope, and Methodology


Purpose, Scope, and Methodology
            The department’s April 2006 response served as the framework for our follow
            up review. We assessed the progress made in improving CBP and ICE
            coordination, interoperability, and relationships in apprehension, detention,
            and removal efforts, interdiction and investigative work, and intelligence
            activities. We interviewed officials within the Management Directorate and
            the Office of Policy, CBP and ICE officials at headquarters, and personnel at
            all levels from CBP’s Offices of Field Operations, Border Patrol, and Air and
            Marine Operations, and in ICE’s Offices of Investigations and Detention and
            Removal Operations. We conducted field visits to Chicago, Illinois; San
            Antonio, Laredo, McAllen, and Brownsville, Texas; Miami, Marathon, and
            Key West, Florida; and Seattle, Blaine, and Bellingham, Washington. We
            also reviewed department records and documents to determine whether
            actions taken or planned effectively address our recommendations. Our
            fieldwork was conducted from June 2006 to October 2006.

            This review was conducted under the authority of the Inspector General Act
            of 1978, as amended, and according to the Quality Standards for Inspections
            issued by the President’s Council on Integrity and Efficiency.




       DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                       Page 40 

     Appendix D
     Management Response to Draft Report




DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                Page 41 

     Appendix D
     Management Response to Draft Report




DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                Page 42 

     Appendix D
     Management Response to Draft Report




DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                Page 43 

     Appendix D
     Management Response to Draft Report




DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                Page 44 

     Appendix D
     Management Response to Draft Report




DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                Page 45 

     Appendix D
     Management Response to Draft Report




DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                Page 46 

     Appendix D
     Management Response to Draft Report




DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                Page 47 

     Appendix D
     Management Response to Draft Report




DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                Page 48 

     Appendix D
     Management Response to Draft Report




DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                Page 49 

     Appendix D
     Management Response to Draft Report




DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                Page 50 

              Appendix E
              Major Contributors to the Report


Major Contributors to the Report

              Marcia Moxey Hodges, Chief Inspector, Department of Homeland Security,
              Office of Inspections

              Jennifer A. Lindsey, Inspector, Department of Homeland Security, Office of
              Inspections

              Carolyn Aya Johnson, Inspector, Department of Homeland Security, Office of
              Inspections

              Levar Cole, Inspector, Department of Homeland Security, Office of
              Inspections

              McKay Smith, Inspector, Department of Homeland Security, Office of
              Inspections




         DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                         Page 51 

     Appendix F
     Report Distribution




     Department of Homeland Security

     Secretary
     Deputy Secretary
     Chief of Staff
     Deputy Chief of Staff
     General Counsel
     Executive Secretary
     Commissioner, Customs and Border Protection
     Assistant Secretary, Immigration and Customs Enforcement
     Under Secretary for Management
     Assistant Secretary for Policy
     Assistant Secretary for Public Affairs
     Assistant Secretary for Legislative and Intergovernmental Affairs
     Director of Operations Coordination
     Director, GAO/OIG Liaison Office
     CBP Audit Liaison
     ICE Audit Liaison
     Chief Privacy Officer

     Office of Management and Budget

     Chief, Homeland Security Branch
     DHS Program Examiner

     Congress

     Congressional Oversight and Appropriations Committees, as appropriate




DHS’ Progress in Addressing Coordination Challenges Between CBP and ICE 

                                Page 52 

Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General (OIG) at (202)
254-4100, fax your request to (202) 254-4285, or visit the OIG web site at www.dhs.gov.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or
noncriminal misconduct relative to department programs or operations, call the OIG Hotline
at 1-800-323-8603; write to Department of Homeland Security, Washington, DC 20528,
Attn: Office of Inspector General, Investigations Division – Hotline. The OIG seeks to
protect the identity of each writer and caller.
